HHS/OIG, Audit -"Review of Illinois Medicaid School-Based Administrative Costs For State
Fiscal Year 2001,"(A-05-02-00050)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Illinois Medicaid School-Based Administrative Costs For State Fiscal Year 2001," (A-05-02-00050)
August 4, 2005
Complete
Text of Report is available in PDF format (506 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Medicaid administrative costs claimed by Illinois for school-based
services at two local education agencies for State fiscal year (SFY) 2001 were reasonable, allowable,
and adequately supported in accordance with applicable Federal and State requirements.  We determined
that the Chicago local education agency claimed unallowable Federal financial participation of $22,976
for enhanced reimbursement.  In addition, time study documentation at both the Chicago and the
Peoria local education agencies was generally not sufficient for us to verify that skilled professional
medical personnel expertise was required to perform the activities claimed at the enhanced 75 percent
rate.  We recommended that Illinois refund the $22,976 and work with the local education agencies
to ensure that sufficient documentation is maintained to allow independent verification that skilled
professional medical expertise is required to perform all activities claimed at the enhanced rate.  Illinois
agreed.